No.

In the Supreme Court of the United States

Aaron Sebastian Redmond,
Petitioner,

Vv.

United States of America,
Respondent,

PROOF OF SERVICE

I, Brandon Beck, do swear or declare that on this date, October 15, 2020, as
required by Supreme Court Rule 29, I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, by
depositing an envelope containing the above documents with postage prepaid for
overnight delivery through a commercial delivery service.

The names and addresses of those served are as follows:
Solicitor General of the United States
Room 5614, Department of Justice
10th and Pennsylvania Ave., N.W.
Washington, D.C. 20530

and by electronic mail today to the Office of the Solicitor General at
SupremeCtBriefs@USDOJ.gov.

I further certify that all parties required to be served have been served.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 10, 2020.

ron dow, Rock

Brandon Beck
Counsel of Record

Assistant Federal Public Defender
Federal Public Defenders Office
Northern District of Texas

1205 Texas Ave. #507

Lubbock, Texas 79401

(806) 472-7236
brandon_beck@fd.org
